NO.

IN THE
SUPREME COURT OF THE UNITED STATES

Ivan Dario Obregon
Petitioner,
VERSUS

UNITED STATES OF AMERICA,
Respondent

 

MOTION TO PROCEED IN FORMA PAUPERIS

 

Petitioner, Ivan Dario Obregon, an indigent, respectfully moves this Court for leave
to file the attached Petition for Writ of Certiorari without costs and to proceed in forma
pauperis in this Court. Petitioner was allowed to so proceed in the Fifth Circuit. Counsel
was appointed under the Criminal Justice Act of 1964, 18 U.S.C. 3006A.

WHEREFORE, PREMISES CONSIDERED, Petitioner respectfully requests that
this Honorable Court permit him to proceed in forma pauperis and for all other relief
necessary.

Respectfully submitted,

/s/Thomas Berg
Thomas S. Berg

Mallett Saper Berg, L.L.P.
4306 Yoakum Blvd., Suite 400
Houston, Texas 77006
713-236-1900

tom berg@msblawyers.com
Attorney for Petitioner
(Counsel of Record)
